No.20-1249
Irr the

Supreme Court ofthe United States
a

GARY VICTOR DUBIN,

Petitioner,
v.
OFFICE OF DISCPLINARY COUNSEL,

Respondent.
a

CERTIFICATE OF COMPLIANCE
FOR MOTION AND BRIEF OF AMICUS CURIAE
SUBMITTED BY PETITIONERS CLIENTS
IN SUPPORT OF PETITION FOR
WRIT OF CERTIORARI
o

GARYVIctoR Duen'I
Counsel of Record

DusN Lew Ornlcns
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813
Telephone: (808) 537-2300
Facsimile: (808) 523-7733
Cellular: (aos) 392-919 I
E

-Mail: gdubin@dubinlaw.net
Attorney for Client Amici

CERTIFICATE OF COMPLIANCE

I hereby certiSz, pursuant to Supreme Court Rule

37, that the herein Motion

For Leave To File An Amicus Brief consists of 448 words and the Brief of Amicus
Curiae herein consists of 2,198 words as determined by the word count function of
the Microsoft Office Windows operating system utilized.
DATED: Honolulu, Hawaiii March 22,2021.
/s/ Gary Victor Dubin
GARY VICTOR DUBIN
Counsel of Record

